No. ___-________

IN THE
SUPREME COURT OF THE UNITED STATES

JOHN TRAN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the First Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to Rule 39 of the Rules of this Court, the petitioner, John Tran, moves to
file the attached Petition for Writ of Certiorari to the United States Court of Appeals for
the First Circuit without prepayment of costs and to proceed in forma pauperis.
The petitioner was represented at trial in the United States District Court for the
District of Massachusetts (No. 16-cr-10010), and on appeal to the First Circuit (No. 172101), by counsel appointed pursuant to the Criminal Justice Act (18 U.S.C. ยง 3006A).
Because counsel was appointed in the court below pursuant to the Criminal Justice
Act, no affidavit or declaration of the petitioner is attached. See S. Ct. R. 39.1.

1

Respectfully submitted,

William W. Fick, Esq.
Counsel of Record
FICK & MARX LLP
24 Federal Street, 4th Floor
Boston, MA 02110
(857) 321-8360
WFICK@FICKMARX.COM
October 1, 2020

2

